December 10, 2020

Scott Harris, Clerk
Supreme Court of the United States
One First Street NE
Washington D.C. 20543-0001
Re:

Preserve Responsible Shoreline Mgt., et al. v. City of Bainbridge Is., et al., No. 20-787

Dear Mr. Harris:
Pursuant to Supreme Court Rule 37.2(a), Petitioners Preserve Responsible Shoreline
Management, et al., hereby give blanket consent to the filing of amicus curiae briefs in
support of either or neither party in the above-referenced case, with respect to the
petition for writ of certiorari filed on December 3, 2020. Thank you for your
assistance.
Sincerely,

GLENN E. ROPER
Counsel for Petitioners
cc: Counsel for Respondents

